OIG Audit Report GR-40-01-002
Office of Community Oriented Policing Services
	Grants to the
 Louisville, Kentucky, Police Department
Audit Report GR-40-01-002February 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Accelerated Hiring, Education, and Deployment (AHEAD) grant and Universal Hiring Program (UHP) grant awarded by the Office of Community Oriented Policing Services to the Louisville Police Department (grantee).   The purpose of the grants is to enhance community policing. The grantee was awarded a total of $3,825,000 to hire 51 additional police officers.  
	
	We found the grantee to be in material noncompliance with COPS' grant requirements. We reviewed the grantee's compliance with seven essential grant conditions and found weaknesses in each of the areas we tested. As a result of the deficiencies listed below, we identified $1,421,539 in dollar-related findings. 1

The grantee budgeted for decreases in officer Full Time Equivalents during the COPS grant period.

The required number of total on-board officers was not maintained during the grant period.

We could not ascertain whether the grantee's local matching funds were provided from funds previously budgeted for law enforcement.

Reimbursement requests contained unallowable and unsupported costs for officer salaries and fringe benefits.

The grantee did not retain all of the AHEAD funded officers and probably will not retain the grant positions funded by the UHP grant.

The grantee did not enhance community policing by the number of sworn officers funded by the grants.

Several status reports were either inaccurate or untimely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.




Footnotes


These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.